                                          NATIONAL SCIENCE FOUNDATION
                                          OFFICE OF INSPECTOR GENERAL
                                            OFFICE OF INVESTIGATIONS

                                     CLOSEOUT MEMORANDUM

 Case Number: A12090063                                                         Page 1 ofl


         During our proactive review of2011 funded proposals, this proposal I was flagged for
         review. It had a significant amount of copied text taken from one source, with
         smaller amounts taken from two other sources. None of the verbatim copied text
         was appropriately cited. We wrote to the PI, who responded that he believed using
         someone else's identical language was acceptable in the background section of the
         proposal. He disputed the text taken from one source as plagiarism because he
         collaborates with the author of the paper from which the text was copied. He said
         the text was originally written for a book manuscript the two of them are working
         on, so he could use that text. We contacted the source author who confirmed they
         are writing a book together.
         We concluded that the PI's plagiarism was a departure from accepted community
         standards, but did not rise to the level of research misconduct. However, since none
         of the of the copied, verbatim text was distinguished from the PI's own text,
         together with the PI's misunderstanding about the need for proper citation in all
         parts of a proposal, we sent the PI a questionable research practice letter informing
         him of appropriate citation practices and NSF's policy on proposal authorship and
         preparation. Therefore, this case is closed and no further action will be taken.




              1


         ••
NSF OIG Form 2 (11102)
